App. la
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

DANIEL DELACRUZ,
Sr.
Plaintiff- Appellant,
v.
THE STATE BAR OF
CALIFORNIA, a
California public entity;
et al.,
Defendants-Appellees.

No. 17-17340
D.C. No. 5:14-cv-05336EJD
MEMORANDUM*
(Filed April 15, 2019)

Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Submitted April 11, 2019**
Before: WALLACE, FARRIS, and TROTT, Circuit
Judges
Daniel Delacruz, Sr., appeals pro se from the
district court’s judgment dismissing his action
alleging federal and state-law claims arising from

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. lb
the denial of admission to practice law by the State
Bar of California stemming from the State Bar’s
moral character determination requirements. We
have jurisdiction under 28 U.S.C. § 1291. We review
de novo. ASARCO, LLC v. Union Pac. R.R. Co., 765
F.3d 999, 1004 (9th Cir. 2014) (dismissal for failure
to state a claim under Fed. R. Civ. P. 12(b)(6));
Kearney v. Foley & Lardner, LLP, 590 F.3d 638, 643
(9th Cir. 2009) (dismissal based on the NoerrPennington doctrine); Lukovsky v. City & County of
San Francisco, 535 F.3d 1044, 1047 (9th Cir. 2008)
(dismissal on statute of limitations grounds); Noel v.
Hall, 341 F.3d 1148, 1154 (9th Cir. 2003) (dismissal
based on the Rooker-Feldman doctrine). We may
affirm on any ground supported by the record.
Thompson v. Paul, 547 F.3d 1055, 1058-59 (9th Cir.
2008). We affirm.
The
district court properly dismissed
Delacruz’s claims against all defendants associated
with the State Bar of California and the Judicial
Council of California because Delacruz’s claims
constitute a forbidden “de facto appeal” of prior state
court judgments against Delacruz and are
“inextricably intertwined” with those judgments. See
Noel, 341 F.3d at 1163-65 (discussing proper
application of the Rooker-Feldman doctrine); Craig
v. State Bar of Cal., 141 F.3d 1353, 1354 n.l (9th Cir.
1998) (noting that “the [Rooker-Feldman] doctrine is
especially appropriate when applied to a state’s
regulation of its own bar”).
Dismissal of Delacruz’s request to modify a
state court injunction was also proper under the
Rooker-Feldman doctrine. See Exxon Mobil Corp. v.

App. lc
Saudi Basic Indus. Corp., 544 U.S. 280, 283-84
(2005) (noting that district courts do not have
jurisdiction over cases in which plaintiffs complain of
injuries caused by state court judgments).
The district court properly dismissed
Delacruz’s claims against defendants associated with
the City of Salinas and the City of Fresno as barred
by the applicable statutes of limitation. See Cal. Civ.
Proc. Code § 335.1 (two-year statute of limitations for
personal injury claims); Lukousky, 535 F.3d at 1048
(California’s statute of limitations for personal injury
torts applies to § 1983 and § 1985 claims).
The district court properly dismissed all
federal claims in Delacruz’s first amended complaint
because the conduct alleged was incidental to
defendants’ petitioning activities and is therefore
protected under the Noerr-Pennington doctrine. See
Sosa u. DIRECTV, Inc., 437 F.3d 923, 934-35 (9th
Cir. 2006) (explaining the Noerr-Pennington
doctrine). Because Delacruz failed to allege
sufficiently that defendants’ actions were objectively
baseless and that they had an improper motive,
Delacruz’s federal claims do not fall within the
narrow sham litigation exception. See Prof’l Real
Estate Inv’rs, Inc. v. Columbia Pictures Indus., Inc.,
508 U.S. 49, 60-61 (1993) (discussing application of
the sham litigation exception to the NoerrPennington doctrine); Kottle v. Nw. Kidney Ctrs., 146
F.3d 1056, 1063 (9th Cir. 1998) (a “heightened
pleading standard” applies to alleged intentional
misrepresentations invoking the sham litigation
exception, and the standard “would have no force if
in order to satisfy it, a party could simply recast

App. Id
disputed issues from the underlying litigation as
misrepresentations by the other party” (citation and
internal quotation marks omitted)). To the extent
that Delacruz alleged non-petitioning activities, the
conduct alleged relates to Delacruz’s state law
claims, over which the district court declined
supplemental jurisdiction, and Delacruz does not
challenge the district court’s decision to decline
supplemental jurisdiction.
The district court did not abuse its discretion
in denying Delacruz’s motion for partial summary
judgment as premature. Fed. R. Civ. P. 56(d);
Burlington N. Santa Fe R.R. Co. v. Assiniboine &
Sioux Tribes of Fort Peck Reservation, 323 F.3d 767,
773 (9th Cir. 2003) (standard of review).
The district court did not abuse its discretion
by denying Delacruz’s motion for reconsideration
because Delacruz failed to establish any basis for
relief. See Sch. Dist. No. 1J, Multnomah Cty., Or. v.
ACandS, Inc., 5 F.3d 1255, 1262-63 (9th Cir. 1993)
(requirements for reconsideration under Fed. R. Civ.
P. 60(b)).
We do not consider matters not specifically and
distinctly raised in the opening brief. See Padgett v.
Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009)
We reject as unsupported by the record
Delacruz’s contentions concerning bias of the district
judge.
Delacruz’s motion for an expedited injunction
(Docket Entry No. 61) is denied.
AFFIRMED

App. 2
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL DELACRUZ
Sr.,
Plaintiff-Appellant,
v.
THE STATE BAR OF
CALIFORNIA, a
California public entity;
et al.
Defendants-Appellees.

No. 17-17340
D.C. No. 5:14-cv-05336EJD
U.S. District Court for
Northern California,
San Jose
ORDER
(Filed May 29, 2019)

Before: WALLACE, FARRIS, and TROTT, Circuit
Judges.
The panel has recommended to deny the
petition for rehearing en banc.
The full court has been advised of the
suggestion for rehearing en banc and no judge of the
court has requested a vote on it. Fed. R. App. P.
35(b).
The petition for rehearing en banc is DENIED.

App. 3
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL DELACRUZ,
Sr.,
Plaintiff-Appellant
v.
THE STATE BAR OF
CALIFORNIA, a
California public entity;
et al.,
Defendants-Appellees.

No. 17-17340
D.C. No. 5:14-cv-05336EJD
U.S. District Court for
Northern California,
San Jose
MANDATE
(Filed June 06, 2019)

The judgment of this Court, entered April 15,
2019, takes effect this date.
This constitutes the formal mandate of this
Court issued pursuant to Rule 41(a) of the Federal
Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Jessica F. Flores
Deputy
Poblano
Clerk Ninth Circuit
Rule 27-7

App. 4a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

DANIEL DELACRUZ,
Sr.,
Plaintiff,
v.

Case No. 5:14-cv-05336EJD
ORDER GRANTING
DEFENDANTS’
MOTIONS TO DISMISS
Re: Dkt. Nos. 254, 255,
257, 259, 261, 294, 295

MIKE ANTLE, et al.,
Defendants

(Filed August 25, 2017)

Plaintiff Daniel Delacruz, Sr. (“Plaintiff’)
maintains in a First Amended Complaint (“FAC”)
that an assorted group of individuals and entities
conspired to deny him admission to the State Bar of
California. That assorted group moves to dismiss the
FAC in a series of motions now before the court. Dkt.
Nos. 254, 255, 257, 259, 261, 294, 295. Plaintiff
opposes.
Federal jurisdiction arises under 28 U.S.C. §
1331. Having reviewed the relevant pleadings, the
court finds that Defendants’ alleged conduct .
constitutes protected petitioning activity and' is
immune under the Noerr-Pennington doctrine. The
Motions to Dismiss will therefore be granted and
Plaintiffs federal causes of action will be dismissed

App. 4b
without leave to amend for the reasons explained
below.

I.
FACTUAL
BACKGROUND

AND

PROCEDURAL

Plaintiff “is a disabled Latino male...” FAC, at
4. After obtaining a law degree and passing both
the Multistate Professional Responsibility Exam and
the State Bar exam, Plaintiff received an adverse
moral character determination from the Committee
of Bar Examiners (the “State Bar”) in 2011. Id. at ^
34; Req. for Judicial Notice (“RJN”), Dkt. No. 93, at
Ex. A.1 He appealed from that determination, and
“an administrative moral character determination
trial was held around May 14, 2012, to about May 18,
2012.” FAC, at ^ 35. A judge of the State Bar Court
found against Plaintiff in a written opinion filed on
August 9, 2012. RJN, at Ex. A. Plaintiff sought
review of the August 9th opinion, and a three-judge
panel of the State Bar Court’s Review Department
also found against Plaintiff on August 7, 2013. RJN,
at Ex. B.
Plaintiff filed a petition for review of the State
Bar Court’s decisions in the California Supreme
Court, which was denied on October 30, 2013. RJN,
at Exs. C, D. An ensuing petition for writ of certiorari
to the United States Supreme Court was denied on
April 28, 2014. FAC, at 37; RJN, at Ex. E.
The causes of action in this case are based
1 The previously court took judicial notice of the State Bar
decisions. It does so again here. See Fed. R. Evid. 201(b); see
also United States ex rel. Lee v. Corinthian Colls.. 655 F.3d
984, 999 (9th Cir. 2011).

App. 4c
primarily on Defendants’ either direct or indirect
involvement in the State Bar proceedings. To that
end, Plaintiff alleges Defendants affiliated with
Tanimura & Antle, Inc. (“TAI”), his former employer,
“failed to prevent” certain information from be
disseminated or sent to the State Bar. FAC, at ^ 47,
49, 53. He alleges that Carmen Ponce, an assistant
general counsel TAI, retaliated against him by
making statements to the State Bar, and that
another unknown affiliate referred to as “John Doe”
fabricated certain information disclosed during the
State Bar proceedings. Id- at ^ 58, 66-73. He also
alleges that attorneys James Sullivan and Richard
Harray voluntarily provided negative information
about Plaintiff to the State Bar. Id- at 1JU 76-78, 8389, 98-99.
Plaintiff makes similar allegations against
individuals affiliated with Sayler Legal Services Inc.,
another former employer. Id. at If 101. Plaintiff
alleges they colluded with TAI and the State Bar to
deny him a law license. Id. at If 112. He further
alleges
Sayler
“disseminated
a
retaliatory
questionnaire regarding Plaintiff to the State Bar so
that Plaintiffs application for a license to practice
law would be denied.” Id- at If 131.
As to Raquel Ramirez and Joshua Sigal,
Plaintiff alleges they provided false or retaliatory
information to the State Bar. Id. at IHf 143, 160, 163,
165.
Plaintiff
contends
Defendants’
conduct
“induced the State Bar to attempt to extort Plaintiff
out his property rights of a law license by
threatening for Plaintiff to abandon his law license

App. 4d
appeal,” “induced the State Bar to mail Plaintiff a
letter with an attached Authorization to Release
Medical Records,” and “induced the State Bar to have
Plaintiff waive his medical privacy and disability
rights by inquiring if Plaintiff would stipulate to
haying an independent medical evaluation
performed.” Id. at ^ 169, 170, 172. He also alleges
that as a result of Defendants’ conduct, the State Bar
concluded that Plaintiff had engaged in acts of moral
turpitude and “urged the California Supreme Court
to deny Plaintiffs petition for review . . . .” Id. at
179, 183. Furthermore, Plaintiff alleges he was
denied employment at the State Bar due to the
defendants’ “voluntary communications . . . that
impugned Plaintiffs moral character.” Id. at 197.
Plaintiff initiated this action against the
current defendants and several others on December
4, 2014. On September 29, 2015, the court ruled on
various motions directed and dismissed all causes of
action asserted in the original complaint, some
without leave to amend, some with leave to amend,
and some without prejudice. Dkt. No. 250.
Plaintiff then filed the FAC. Dkt. No. 253. He
asserts four federal causes of action against all
Defendants: (1) disability discrimination and
retaliation, (2) discrimination and retaliation based
on race, color and religion, (3) deprivation of civil
rights, and (4) conspiracy to interfere with civil
rights.
These motions followed.
II. LEGAL STANDARD
A.
Federal Rule of Civil Procedure 12(b)(1)

App. 4e
A Rule 12(b)(1) motion challenges subject
matter jurisdiction and may be either facial or
factual. Wolfe v. Strankman. 392 F.3d 358, 362 (9th
Cir. 2004). A facial 12(b)(1) motion involves an
inquiry confined to the allegations in the complaint,
whereas a factual 12(b)(1) motion permits the court
to look beyond the complaint to extrinsic evidence.
Id. On a facial challenge, all material allegations in
the complaint are assumed true, and the court must
determine whether lack of federal jurisdiction
appears from the face of the complaint itself.
Thornhill Publ’g Co. v. General Tel. Elec.. 594 F.2d
730, 733 (9th Cir. 1979).
“A party invoking the federal court’s
jurisdiction has the burden of proving the actual
existence of subject matter jurisdiction.” Thompson
v. McCombe. 99 F.3d 352, 353 (9th Cir. 1996).
B.

Federal Rule of Civil Procedure 12(b)(6)

Federal Rule of Civil Procedure 8(a) requires a
plaintiff to plead each claim with sufficient
specificity to “give the defendant fair notice of what
the . . . claim is and the grounds upon which it rests.”
Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 555 (2007)
(internal quotations omitted). The factual allegations
in the complaint “must be enough to raise a right to
relief above the speculative level” such that the claim
“is plausible on its face.” Id. at 556-57. A complaint
that falls short of the Rule 8(a) standard may be
dismissed if it fails to state a claim upon which relief
can be granted. Fed. R. Civ. P. 12(b)(6). “Dismissal
under Rule 12(b)(6) is appropriate only where the
complaint lacks a cognizable legal theory or sufficient
facts to support a cognizable legal theory.”

App. 4f
Mendiondo v. Centinela Hosn. Med. Ctr., 521 F.3d
1097, 1104 (9th Cir. 2008).
When deciding whether to grant a motion to
dismiss, the court must generally accept as true all
“well-pleaded factual allegations.” Ashcroft v. Iqbal.
556 U.S. 662, 664 (2009). The court must also
construe the alleged facts in the light most favorable
to the plaintiff. See Retail Prop. Trust v. United Bhd.
of Carpenters & Joiners of Am.. 768 F.3d 938, 945
(9th Cir. 2014) (providing the court must “draw all
reasonable inferences in favor of the nonmoving
party” for a Rule 12(b)(6) motion). However, “courts
are not bound to accept as true a legal conclusion
couched as a factual allegation.” Iqbal. 556 U.S. at
678.
Also, the court usually does not consider any
material beyond the pleadings for a Rule 12(b)(6)
analysis. Hal Roach Studios. Inc, v. Richard Feiner &
Co., 896 F.2d 1542, 1555 n. 19 (9th Cir. 1990).
Exceptions to this rule include material submitted as
part of the complaint or relied upon in the complaint,
and material subject to judicial notice. See Lee v.
City of Los Angeles. 250 F.3d 668, 688-69 (9th Cir.
2001).
C.

Pro Se Pleadings

Where, as here, the pleading at issue is filed
by a plaintiff proceeding pro se, it must be construed
liberally. Resnick v. Haves. 213 F.3d 443, 447 (9th
Cir. 2000). In doing so, the court “need not give a
plaintiff the benefit of every conceivable doubt” but
“is required only to draw every reasonable or
warranted factual inference in the plaintiffs favor.”

App. 4g
McKinney v. De Bord, 507 F.2d 501, 504 (9th Cir.
1974). The court “should use common sense in
interpreting the frequently diffuse pleadings of pro
se complainants.” Id- But pro se parties must still
abide by the rules of the court in which they litigate.
Carter v. Comm’r of Internal Revenue. 784 F.2d
1006, 1008 (9th Cir. 1986).
A pro se complaint should not be dismissed
unless the court finds it “beyond doubt that the
plaintiff can prove no set of facts in support of his
claim which would entitle him to relief.” Haines v.
Kerner. 404 U.S. 519, 521 (1972).
III. DISCUSSION
A.

Preliminary Issues Raised by Plaintiff

Plaintiff makes several arguments in an effort
to prevent consideration of the motions to dismiss on
their substance, all of which are misplaced.
First, Plaintiff argues the motions should be
denied for failure to comply with Civil Local Rule 72(d), which states that “[e]ach motion must be
accompanied by affidavits or declarations pursuant
to Civil L.R. 7-5.” Rule 7-5, in turn, states that
“[f]actual contentions made in support of or in
opposition to any motion must be supported by an
affidavit or declaration and by appropriate references
to the record.” When taken together, these rules do
not require that declarations be submitted with
every motion; instead, declarations are only
necessary to support asserted facts. Since Plaintiff
does not identify exactly which factual contentions
are unsupported by an affidavit or declaration other
than noting the lack of declarations in general, this

App. 4h
argument is ineffective as a basis to deny the
motions outright.
Second, Plaintiff contends Defendants violated
Federal Rule of Civil Procedure 11 in various ways.
As the court understands the argument, Plaintiff
claims
Defendants
presented
contradictory
arguments by seeking to hold Plaintiff to the Rule 8
pleading standard, but then arguing that conspiracy
claims must meet a heightened standard. Having
reviewed the pleadings, however, the court finds no
such contradiction, let alone one that violates Rule
ll’s prohibition on improper pleadings. The case
cited by Plaintiff in support of this argument,
Burroughs Adding Mach. Co. v. Rockford Milling
Mach. Co.. 292 F. 550 (7th Cir. 1923), has nothing to
do with Rule 11 or pleading standards, and is
therefore inapposite.
Third, Plaintiff believes defendants violated
Rule 11 by attempting to “re-litigate” certain issues
contrary to principles of res judicata and collateral
estoppel, such as application of the Rooker-Feldman
doctrine, the Noerr-Pennington doctrine, and the
absolute litigation privilege under California Civil
Code § 47. Contrary to Plaintiffs representation,
however, the court did not directly address any of
these issues in relation to the remaining Defendants
and no decision on those topics was thereby provided
in relation to them. In any event, neither res judicata
nor collateral estoppel can arise from orders or
judgment entered in the same action. See Sandpiper
Vill. Condo. Ass’n v. Louisiana-Pacific Corp., 428
F.3d 831, 849 n. 24 (9th Cir. 2005) (“Central to the
concepts of res judicata and collateral estoppel is the

App. 4i
principle that only parties to a prior action and
parties in privity with parties to a prior action are
barred from relitigating claims or issues in a
subsequent action.”). And since the amended
complaint replaces the original one, there is no
reason to find that Defendants lost the ability to
assert any argument merely because they previously
made it against a prior pleading. See Hal Roach
Studios. Inc, v. Richard Feiner & Co.. Inc.. 896 F.2d
1542, 1546 (9th Cir. 1989) (“[A]n amended pleading
supersedes the original.”).
Fourth, Plaintiff argues Defendants violated
Rule 11 by re-filing motions to dismiss because their
“proper recourse was to appeal this Court’s Order
with the Ninth Circuit Court of Appeal instead of
relitigating the same issues in their second motion to
dismiss.” That is incorrect. “If a district court’s order
does not dispose of all claims against all parties,
there is no ‘final order’ within the meaning of 28
U.S.C. § 1291” to appeal. Ethridge v. Harbor House
Rest.. 861 F.2d 1389, 1402 (9th Cir. 1988). The prior
order addressing motions to dismiss did not finally
decide all issues against all parties, as even Plaintiff
recognizes. As such, Defendants’ proper recourse was
to respond in some fashion to the FAC, which they
have done.
B.

Dismissal Issues Raised by Defendants
i. Rooker-Feldman

Under the Rooker-Feldman doctrine, “a
federal district court does not have subject matter
jurisdiction to hear a direct appeal from the final
judgment of a state court.” Noel v. Hall. 341 F.3d

App. 4j
1148, 1154 (9th Cir. 2003). “A party disappointed
by a decision of a state court may seek reversal of
that decision by appealing to a higher state court”
but may not “appeal to a federal district court, even
if a federal question is present or if there is
diversity of citizenship between the parties.” IcL at
1155.
The Rooker-Feldman doctrine also prohibits
district courts from hearing de facto appeals of statecourt decisions. A case can be classified as a de facto
appeal “when a losing plaintiff in state court brings a
suit in federal district court asserting as legal wrongs
the allegedly erroneous legal rulings of the state
court and seeks to vacate or set aside the judgment of
that court.” Id. at 1156. “In contrast, if ‘a federal
plaintiff asserts as a legal wrong an allegedly illegal
act or omission by an adverse party, Rooker-Feldman
does not bar jurisdiction.”’ Bell v. City of Boise. 709
F.3d 890, 897 (9th Cir. 2013) (quoting Noel. 341 F.3d
at 1164). “Thus, even if a plaintiff seeks relief from a
state court judgment, such a suit is a forbidden de
facto appeal only if the plaintiff also alleges a legal
error by the state court.” IcL (emphasis preserved).
Furthermore,
the
district court lacks
jurisdiction to entertain issues which are
“inextricably intertwined” with a de facto appeal. Idat 1158. Notably, however, the “inextricably
intertwined” concept “is not a test to determine
whether a claim is a de facto appeal, but is rather a
second and distinct step in the Rooker-Feldman
analysis.” Bell. 709 F.3d at 897. “Should the action
not contain a forbidden de facto appeal, the RookerFeldman inquiry ends.” Id.: Noel. 341 F.3d at 1158

App. 4k
(“Only when there is already a forbidden de facto
appeal in federal court does the ‘inextricably
intertwined’ test come into play.”).
Here, several Defendants argue the RookerFeldman doctrine precludes federal jurisdiction over
Plaintiffs claims because they are “inextricably
intertwined” with the denial of Plaintiffs application
for bar admission. This argument is an attractive one
on its face because the court cited Rooker-Feldman
as a possible alternative basis for the dismissal of
claims against previously-named defendants, all of
which of would have required an “undoing” of
decisions made in state proceedings to impose
liability. See Bianchi v. Rvlaarsdam. 334 F.3d 895,
901 (9th Cir. 2003); see also Doe & Assocs. Law
Offices v. Nanolitano. 252 F.3d 1026, 1030 (9th Cir.
2001) (“Because district courts lack power to hear
direct appeals from state court decisions, they must
decline jurisdiction whenever they are ‘in essence
being called upon to review the state court
decision.’”). Moreover, Plaintiff appears to assert
damages from the state proceedings. For example,
Plaintiff alleges in connection with this second cause
of action for discrimination and retaliation that he
was “damaged by being deprived of a livelihood as a
paralegal, administrative assistant, legal secretary,
and as a licensed attorney.” FAC, at 218.
But a closer review of the current claims
reveals why they are not jurisdictionally
problematic under Rooker-Feldman. Indeed, the
difference between the current claims and the
dismissed claims is that the former do not require
this court to review the correctness of the state

App. 41
court proceedings in the same way as the latter did.
In other words, Plaintiff is now asserting in the
FAC legal wrongs by adverse parties rather than a
legal error by the State Bar and the state courts.
The current iteration of this action is therefore not
a prohibited de facto appeal under RookerFeldman. And in the absence of such a
classification, the court need not consider whether
the issues presented are “inextricably intertwined”
with a de facto appeal.
ii. Noerr-Pennington
Defendants’
a.
Immunized

Alleged

Conduct

is

“The Noerr-Pennington doctrine derives from
the Petition Clause of the First Amendment and
provides that ‘those who petition any department of
the government for redress are generally immune
from statutory liability for their petitioning
conduct.”’ Kearney v. Folev & Lardner, LLP. 590
F.3d 638, 643-44 (9th Cir. 2009) (quoting Sosa v.
DIRECTV. Inc.. 437 F.3d 923, 929 (9th Cir. 2006)). It
“stands for a generic rule of statutory construction,
applicable to any statutory interpretation that could
implicate the rights protected by the Petition
Clause.” Sosa. 437 F.3d at 931. Under the doctrine’s
rule of statutory construction, federal statutes are
interpreted “so as to avoid burdening conduct that
implicates the protections afforded by the Petition
Clause unless the statute clearly provides
otherwise.” IdThe scope of governmental proceedings to
which Noerr-Pennington applies is broad. Though it

App. 4m
originally arose in the antitrust context, the
Supreme Court “subsequently expanded the holding
of Noerr to include activities aimed at the executive
and judicial branches of government,” whether
federal or state. Kottle v. Nw, Kidney Ctrs., 146
F.3d 1056, 1059 (9th Cir. 1998); Cal. Pharmacy
Memt.. LLC. 669 F. Supp. 2d 1152, 1167 (C.D. Cal.
2009) (explaining the Noerr-Pennington doctrine
“applies to petitions before both state governments
and the federal government.”); accord Cal. Motor
Transn. Co. v. Trucking Unlimited. 404 U.S. 508,
510 (1972) (“Certainly the right to petition extends
to all departments of the Government”). It “applies
equally in all contexts.” White v. Lee. 227 F.3d'1214,
1231 (9th Cir. 2000).
Noerr-Pennington immunity extends
to
anything “fairly described as petitions” directed to
the government, and conduct incidental to a petition.
Freeman v. Laskv. Haas & Cohler. 410 F.3d 1180,
1184 (9th Cir. 2005); Sosa, 437 F.3d at 931-32
(holding the court must give adequate “breathing
space” when determining whether conduct falls
under Noerr-Pennington protection). It has been
applied to virtually every type of tort, including civil
rights claims. Ungureanu v. A. Teichert & Son. No.
CIV S-ll-0316 LKK GGH PS, 2012 WL 1108831, at
*7 (E.D. Cal. Apr. 2, 2012) (citing Boulware v. State
of Nev.. Dep’t of Human Res.. 960 F.2d 793, 800 (9th
Cir. 1992)).
Here, the court easily finds that proceedings
before the State Bar Court can implicate NoerrPennington. The State Bar Court, though not a court
of law, is part of the State Bar, a “constitutional

App. 4n
entity within the judicial article of the California
Constitution,” whose service to the California
Supreme Court is “an integral part of the judicial
function.” Obrien v. Jones. 23 Cal. 4th 40, 48 (2000).
It is therefore unquestionably a part of California
state government.
The court also finds that Defendants’
purported activities in relation to Plaintiffs State
Bar proceedings constitute petitioning or conduct
incidental to petitioning for the purposes of NoerrPennington. In brief, Plaintiff alleges Defendants
“disseminated” or failed to prevent the dissemination
of particular information to the State Bar concerning
his fitness to practice law. According to the SAC; the
dissemination occurred through written statements
or answers to questionnaires submitted to the agency
and testimony before the State Bar Court during the
May, 2012, trial. See Freeman. 410 F.3d at 1184
(holding that “assorted documents and pleadings” in
which parties “make representations and present
arguments to support their request that the court do
or not do something” are petitions under NoerrPenningtqn).
Applying the Noerr-Pennington doctrine to
Plaintiffs federal claims, the court interprets the
statutes on which they are based so as to exclude
Defendants’ alleged conduct from their purview.
Defendants’ reporting to the State Bar was a
petitioning activity protected by the First
Amendment and thus immune from suit.
b. The Sham Exception Does Not Apply
Though not raised by Plaintiff in opposition,

App. 4o
the court considers the sham exception to NoerrPennington immunity. “The ‘sham’ exception to
Noerr encompasses situations in which persons use
the governmental process - as opposed to the
outcome of that process - as an anticompetitive
weapon.” City of Columbia v. Omni Outdoor Advert..
Inc., 499 U.S. 365, 380 (1991). Its formulation
“depends on the type of governmental entity
involved.” Kottle. 146 F.3d at 1060. Since California
law and Plaintiffs allegations specify the State Bar
Court is a judicial agency tasked with conducting
“evidentiary hearings on the merits in disciplinary
matters”
and
rendering
“written
decisions
recommending whether attorneys should be
disciplined” (Obrien, 23 Cal. 4th at 44), examination
of the judicial sham exception is appropriate. See
Kottle. 146 F.3d at 1062.
The judicial sham exception recognizes three
circumstances falling outside of Noerr-Pennington
protection: (1) if the alleged conduct consists of one
proceeding, the plaintiff must establish that the
proceeding was objectively baseless and a concealed
attempt to interfere with the plaintiffs business
relationships; (2) if the alleged conduct consists of a
series of proceedings, whether they were brought
without regard to the merits and for the purpose of
injuring the plaintiff; and (3) if the alleged conduct
consists of making intentional misrepresentations to
the court, the proceeding can be deemed a sham if
the misrepresentations deprived the proceeding of its
legitimacy. Id. at 1060.
Thus, Plaintiffs claims overcome the NoerrPermington doctrine only if the allegations show that

App. 4p
(1) Defendants’ alleged conduct in relation to the
State Bar proceedings was objectively baseless and
an attempt to stifle Plaintiffs business relationships;
(2) Defendants engaged in a pattern of petitions
before the State Bar without regard to the merits of
Defendants1
or
petitions;
those
(3)
misrepresentations before the State Bar deprived the
proceedings of its legitimacy.
Because the FAC is confined to only one State
Bar proceeding, the second ground of the sham
exception cannot apply. Nor does the first ground;
since the State Bar Court found that Plaintiff should
not be admitted to practice law, Defendants’ alleged
disclosure of negative information about Plaintiff to
the State Bar was not objectively baseless. Id- at
1063 (“In the litigation context, the Supreme Court
has reminded us that a winning lawsuit is, by
definition, not objectively baseless.”).
Looking finally at the third ground, the FAC
does not demonstrate that Defendants so
misrepresented the truth to the State Bar Court
that the entire proceeding was deprived of its
legitimacy. Plaintiff must overcome a heightened
pleading standard to show this, “and that standard
‘would have no force if in order to satisfy it, a party
could simply recast disputed issues from the
underlying litigation as ‘misrepresentations’ by the
other party.” Id. (quoting Or. Nat. Res. Council v.
Mohla. 944 F.2d 531, 536 (9th Cir. 1991)). Here,
though Plaintiffs allegations are many and
detailed in several respects, the question of
whether or not they plausibly show pervasive
misrepresentation directed to the State Bar Court

App. 4q
cannot be separated from the allegations and
judicially-noticeable
documents
showing the
manner and levels of process Plaintiff was afforded.
The determination of a complaint’s plausibility does
not occur in a vacuum. See Levitt v. Yelp! Inc., 765
F.3d 1123, 1135 (9th Cir. 2014) (“In all cases,
evaluating a complaint’s plausibility is a ‘contextspecific’ endeavor that requires courts to ‘draw on .
. . judicial experience and common sense.’”).
The State Bar Court engaged a five-day
hearing, where Plaintiff and the State Bar presented
testimony, evidence, counter-testimony and counter­
evidence. In the decision explaining why Plaintiff did
not present sufficient indicia of good moral character
for admission, the State Bar Court found the State
Bar’s witnesses “very credible” but found that
Plaintiff was not fully credible. Plaintiff appealed,
but the State Bar Review Department sustained the
lower court’s findings. Plaintiff then petitioned for
review in the California Supreme Court and the
United States Supreme Court, but those petitions
were denied.
In the FAC, it is plain that Plaintiff recasts his
various disagreements with the information
Defendant’s provided to the State Bar Court as a
conspiracy of misrepresentation against him, even
after he was given a two opportunities to test the
record. But that sort of attack does not plausibly
demonstrate the illegitimacy of the State Bar
proceedings. Furthermore, a finding that these
claims
satisfy
the
sham
exception
would
unquestionably chill the exercise
of First
Amendment Rights of those with information

App. 4r
relevant to licensing determinations.
In sum, the federal claims are not excepted
from Noerr-Pennington and must be dismissed on
that basis.
c. Plaintiffs Arguments are Unpersuasive
Plaintiff seeks to avoid the effect of the NoerrPennington doctrine in two ways, neither of which
are successful. First, he raises again his argument
that Defendants are barred by res judicata or
collateral estoppel simply because Noerr-Pennington
was raised by Defendants in the last round of
dismissal motions. Not so. The court has already
explained why Plaintiffs reasoning on this subject is
legally incorrect.
Second, Plaintiff argues Defendants waived
the Noerr-Pennington doctrine because of release
provisions included in a settlement agreement
entered in another action. No. Interpreting the
language cited by Plaintiff under the same California
principles applicable to any other contractual
agreement (Marder v. Lopez. 450 F.3d 445, (9th Cir.
2006)), the reference to “claims” in the release cannot
be read to encompass arguments made in response to
a later lawsuit initiated by Plaintiff.
C. Leave to Amend
The court must now determine whether
Plaintiff should again be granted leave to amend.
“Dismissal without leave to amend is improper
unless it is clear, upon de novo review, that the
complaint could not be saved by any amendment.”
Krainski v. Nevada ex rel. Bd. of Regents of Nevada
Svs. of Higher Educ.. 616 F.3d 963, 972 (9th Cir.

App. 4s
2010) (internal citation and quotation marks
omitted). However, “[a] district court may deny leave
to amend when amendment would be futile”
(Hartmann v. Cal. Dep’t of Corr. & Rehab.. 707 F.3d
1114, 1129-30 (9th Cir. 2013)), or for “failure to cure
deficiencies by amendments previously allowed.”
Leadsinger. Inc, v. BMG Music Publ’g, 512 F.3d 522,
532 (9th Cir. 2008).
Here, Plaintiff has already amended his
complaint once. Though he did so without specific
direction from the court on Noerr-Pennington. it is
nonetheless important to note, as Plaintiff does,
that the doctrine was previously raised by
Defendants. Thus, Plaintiff had the benefit of this
notice when fashioning the FAC.
Additionally, and in any event, there are no
additional facts that would render Plaintiffs
federal claims capable of overcoming NoerrPennington immunity because they stem from
protected petitioning activity that does not fall
within the sham exception.
For these reasons, the federal claims will be
dismissed without leave to amend.
D. State-Law Claims
Plaintiffs remaining
California state law.

claims

arise

under

The jurisdiction of federal courts is limited,
and is only properly exercised over those cases
raising federal questions or involving parties with
diverse citizenship. Exxon Mobil Corn, v. Allapattah
Servs.. Inc.. 545 U.S. 546, 552 (2005). “[Ojnce a court
has original jurisdiction over some claims in the

App. 4t
action, it may exercise supplemental jurisdiction over
additional claims that are part of the same case or
controversy.” IcL However, a district court may
properly decline to exercise supplemental jurisdiction
over state-law claims if such claims “substantially
predominate [ ] over the claim or claims over which
the district court has original jurisdiction” or if the
court “has dismissed all claims over which it has
original jurisdiction.” 28 U.S.C. § 1367(c).
Since this order will resolve the two federal
claims asserted in this action, the court will decline
supplemental jurisdiction over the state law claims.
Those claims will again be dismissed without
prejudice. See 28 U.S.C. § 1367(c)(3); see also Acri v.
Varian Assocs.. Inc.. 114 F.3d 999, 1000 (9th Cir.
1997) (en banc).
E. Motion to Strike
Since all claims are dismissed on other
grounds, the court need not reach the merits of the
anti-SLAPP motion to strike. Dkt. No. 257. It will
therefore be denied as moot. Sikhs for Justice “SFJ”,
Inc, v. Facebook. Inc.. 144 F.3d 1088, 1097 (N.D. Cal.
2015).
IV. ORDER
Based on the foregoing, the Motions to Dismiss
(Dkt. Nos. 254, 255, 259, 261, 294, 295) are
GRANTED. The FAC’s federal claims are
DISMISSED WITHOUT LEAVE TO AMEND. The
claims arising under state law are DISMISSED
WITHOUT PREJUDICE.
The Anti-SLAPP Motion to Strike (Dkt. No.
257) is DENIED AS MOOT.

App. 4u
matters are

All other
VACATED and
TERMINATED.
Judgment will be entered in favor of
Defendants and the Clerk shall close this file.
IT IS SO ORDERED.
Dated: August 25, 2017
EDWARD J.
DAVILA
United States
District Judge

